                          CLOSEOUT FOR M98070018

        On July 7, 1998, OIG received an allegation from an NSFprogram officer' that
the subject2 may have committed misconduct in science. It was alleged that after
submitting a proposal3 to another agency,4 the subject submitted a nearly identical
proposal5 to NSF without disclosing that fact as required on the NSF proposal cover page
or in the Current and Pending Support section. Neither proposal was funded.

        The substantive texts of both proposals were strikingly similar. The primary
difference between the two proposals was the omission from the NSF proposal of about a
page of material that appeared in the other proposal. The project summaries for the two
proposals were also identical except for different rationales for the relevance of the work
to each agency. We wrote the subject and asked him why he submitted largely identical
proposals to the two agencies, and did not indicate that fact on either the cover page or
the Current and Pending Support sections of the NSF proposal, which was submitted
more than a month after the proposal to the other agency.


        In his response, the subject explained that at the time he submitted the proposals,
he had been attending several meetings abroad and was thus under extreme time pressure;
as a result, he had not examined those pages very thoroughly. In our view, the subject
had not sufficiently explained the failure to disclose the largely identical proposal, and
accordingly we found that there was sufficient substance to warrant further inquiry. We
deferred that inquiry to the subject's in~titution,~   which was in the best position to
determine whether this was an isolated instance of duplicate proposal submission, or part
of a pattern. In deferring the inquiry, we indicated that the actions in question could be
considered misconduct in science, or administrative misdeeds.

        The subject's institution initiated a "preliminary investigation," which was
conducted by a "preliminary investigating officer." In addition to examining the events
leading to the duplicate proposal submission discussed above, the preliminary
investigating officer considered whether the subject made the required disclosures in the
cover sheets and Current and Pending Support sections of 15 other proposals that the
subject had submitted to federal agencies.

       The preliminary investigating officer determined that the subject had not
personally filled out either the duplicate proposal box or the Current and Pending
Support form; rather, he relied on two administrative assistants who prepared these
documents based on previous grant applications and records that they maintained.
Although the subject had an opportunity to review and make changes on these
documents, he failed to undertake a thorough review or institute a better tracking system.
As a result of relying on this procedure, almost all of the proposals examined had errors


' [Redacted].
2
    [Redacted].
    [Redacted].
4
    [Redacted].
    [Redacted].
    [Redacted].

                                   Page 1 of 3                              M98-18
                           CLOSEOUT FOR M98070018

or omissions in the Current and Pending Support section. Among these proposals there
was only one other set of duplicate proposals. Although the duplication was not
disclosed on the cover sheet, only one of these proposals was funded, so, as was the case
for the duplicate proposals previously brought to OIG's attention, there was no issue of
receipt of duplicate funding.

        The preliminary investigating officer believed that the subject's actions were
errors, and that the individual errors were not committed knowingly. However, she
concluded that the subject knowingly adopted a procedure that would lead to the errors.
Therefore, in the officer's view, the subject used a procedure that produced a high
frequency of errors, and was "sufficiently divergent from acceptable practices" to fall
within NSF's definition of misconduct in science, even though the errors were in a
section that does not have an impact on the scientific integrity of the proposal. The
officer believed, however, that the fact that the errors were not in the scientific portion of
the proposal should be considered in determining the appropriate sanctions. Moreover,
because the, officer found only one other instance of duplicative submissions, she
characterized the subject's actions as a pattern of inattention to detail, rather than an
effort to hide attempts to receive duplicate funding. She considered his behavior to be
misconduct in science.

         Based on the report of the preliminary investigating officer, the chancellor7 of the
institution formally censured the subject. In addition, the Chancellor required that the
subject's future proposals to all funding organizations be reviewed and certified by the
Dean for a period of three years. The Chancellor, however, did not express his views as
to whether the subject had committed misconduct in science; he did not adjudicate the
preliminary investigating officer's conclusion.

        In OIG's view, the main finding of the preliminary investigation was that the
subject repeatedly failed to identify errors in the Current and Pending Support sections of
his proposals, and failed to disclose duplicative submissions in two instances. This
pattern of errors was the result of a faulty procedure in which he did not review
documents prepared by administrative assistants. The subject's proposals usually had
errors in the Current and Pending Support section; the errors were not limited to the
duplicative submissions. The errors did not affect the scientific integrity of the proposals,
nor did the subject knowingly intend to hide duplicative submissions. While we agree
that the use of such a faulty procedure was unacceptable, our conclusions are independent
of the institution's report, and we believe this case is best characterized by the subject's
negligent submission of undisclosed duplicative proposals.



        We believe that the Chancellor's censure of the subject, and required review and
certification of the subject's proposals, are sufficient to protect the government's interest
in ensuring that the subject's future Current and Pending Support sections are accurate
and that duplicative proposals are neither funded nor submitted without disclosure.

' [Redacted].
                                    Page 2 of 3                                M98-18
                        CLOSEOUT FOR M98070018

Moreover, the subject has apologized for his actions and has undertaken to improve the
accuracy of his submissions. Accordingly, this inquiry is closed and no further action
will be taken.

cc:    Integrity, IG




                                 Page 3 of 3
